No. 19-518
In the Supreme Court of the United States
____________
Colorado Department of State, Petitioner
v.
Micheal Baca et al., Respondents
____________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit

____________
Brief of Amicus Curiae National Conference of
Commissioners on Uniform State Laws
Supporting Petitioner
____________
Peter F. Langrock
James Bopp, Jr.
111 South Pleasant Street
Counsel of Record
P.O. Drawer 351
Richard E. Coleson
Middlebury, VT 05753-0351 Melena S. Siebert
THE BOPP LAW FIRM, PC
Carl H. Lisman
The National Building
NCCUSL President
1 South Sixth Street
84 Pine St.
Terre Haute, IN 47807
Burlington, VT 05401
812/232-2434 telephone
Daniel Robbins
812/235-3685 facsimile
Chair, NCCUSL Exec. Comm.
15301 Ventura Blvd., Bldg E jboppjr@aol.com
Sherman Oaks, CA 91403
Susan Kelly Nichols
Chair, UFPEA Drafting Comm.

3217 Northampton St.
Raleigh, NC 27609
Of Counsel for Amicus Curiae

Counsel for Amicus Curiae

Question Presented
Amicus curiae National Conference of Commissioners on Uniform State Laws (“NCCUSL”), also known as
the Uniform Law Commission (“ULC”), addresses Petitioner’s (“Colorado’s”) second question presented:
Does Article II or the Twelfth Amendment forbid a State from requiring its presidential electors to follow the State’s popular vote when casting their Electoral College ballots?
Amicus ULC focuses on this question from the perspective of its Uniform Faithful Presidential Electors Act
(“UFPEA”). Colorado suggests that the UFPEA could
be jeopardized by the Tenth Circuit decision. Pet. 35.
Amicus ULC agrees and urges the Court to grant Colorado’s Petition.

(i)

Table of Contents
Table of Authorities. . . . . . . . . . . . . . . . . . . . . . . . (iii)
Interest of Amicus Curiae.. . . . . . . . . . . . . . . . . . . . . 1
Summary of the Argument. . . . . . . . . . . . . . . . . . . . . 5
Argument.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

The UFPEA Is a Remove-and-Replace
Provision, Like Colorado’s but Unlike
Washington’s Post-Violation Penalty.. . . . . . . 6
A. The UFPEA Removes Faithless Electors
Before They “Cast” a Ballot.. . . . . . . . . . . . 7
B. The UFPEA Has Been Adopted by
States and Successfully Functioned.. . . . 10
C. Colorado’s Provision Is Similar to the
UFPEA, but Washington’s Previous
Provision Differs... . . . . . . . . . . . . . . . . . . 12

II.

The UFPEA Complies with Controlling
Federal Constitutional and Statutory
Provisions and Precedent.. . . . . . . . . . . . . . . 13

III.

Important Principles of Individual Political Empowerment and Federalism Favor Certiorari.. . . . . . . . . . . . . . . . . . . . . . . . . 21

Conclusion. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

Appendix Table of Contents
Uniform Faithful Presidential Electors Act
with Prefatory Note and Comments. . . . . . . . . . 1a

(ii)

Table of Authorities
Cases
Abdurrahman v. Dayton, 903 F.3d 813 (8th Cir.
2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Abdurrahman v. Dayton, No. 16-cv-4279
(PAM/HB), 2016 U.S. Dist. LEXIS 178222 (D.
Minn. Dec. 23, 2016). . . . . . . . . . . . . . . . . . . . . . 11
Asarco, Inc. v. Idaho State Tax Comm’n, 458 U.S.
307 (1982).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Bush v. Gore, 531 U.S. 98 (2000). . . . . . . . . . . . . . . 11
Flagg Bros., Inc. v. Brooks, 436 U.S. 149 (1978). . . . 3
In re Guerra, 441 P.3d 807 (Wash. 2019). . . . . . . . . 12
McDermott, Inc. v. Amclyde, 511 U.S. 202 (1994). . . 4
Ponte v. Real, 471 U.S. 491 (1985). . . . . . . . . . . . . . . 4
Ray v. Blair, 343 U.S. 214 (1952). . . . . . . . . . . . 11, 20
Constitutions, Statutes, Regulations & Rules
3 U.S.C. Chapter 1. . . . . . . . . . . . . . . . 4, 8, 13, 14, 20
24 Stat. 373 (1887). . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Colo. Rev. Stat. § 1-4-304. . . . . . . . . . . . . . . . . . . . . 12
Mich. Comp. Laws Serv. § 168.47.. . . . . . . . . . . . . . 10
Minn. Stat. § 208.40. . . . . . . . . . . . . . . . . . . . . . . . . 11
N.C. Gen. Stat. § 163-212. . . . . . . . . . . . . . . . . . . . . 10
Sup. Ct. R. 37.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
U.S. Const. amend. X. . . . . . . . . . . . . . . . . . . . . . . . 19
U.S. Const. amend. XII. . . . . . . . . . . . . . . . . . . passim
(iii)

U.S. Const. art. II, § 1. . . . . . . . . . . . . . . . . . . . passim
ULC Const. § 6.1(6). . . . . . . . . . . . . . . . . . . . . . . . . . . 3
ULC Const. § 8.1. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
ULC, Uniform Faithful Presidential Electors Act
(2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Utah Code Ann. § 20A-13-304(3)... . . . . . . . . . . . . . 10
Wash. Rev. Code §§ 29A.56.080-092. . . . . . . . . . . . 10
Wash. Rev. Code § 29A.56.340. . . . . . . . . . . . . . . . . 12
Other Authorities
Memorandum from Robert Bennett, UFPEA Reporter, to the NCCUSL Drafting Committee
on Presidential Electors Act (March 2009). . . . . 22
Jesse O. Hale Jr., Reining In Renegade Presidential Electors: A Uniform State Approach, Baker
Ctr. J. of Applied Pub. Policy, 2010. . . . . . . . . . 23
Patrick Henry, The Virginia Stamp Act Resolutions, House of Burgesses, May 30, 1765. . . . . . 21
Eric Manpearl, Securing U.S. Election Systems:
Designating U.S. Election Systems as Critical
Infrastructure and Instituting Election Security Reforms, 24 B.U. J. Sci. & Tech. L. 168
(2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Beverly J. Ross and William Josephson, The Electoral College and the Popular Vote, 12 J. L. &
Politics 665 (1996). . . . . . . . . . . . . . . . . . . . . . . . 22
Robert A. Stein, Forming a More Perfect Union: A
History of the Uniform Law Commission
(2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
(iv)

Keith E. Whittington, Originalism, Constitutional
Construction, and the Problem of Faithless
Electors, 59 Ariz. L. Rev. 904 (2017). . . . . . . . . . 22

(v)

Interest of Amicus Curiae1
ULC History
In 1892, a group of distinguished lawyers established The State Boards of Commissioners for Promoting Uniformity of Law in the U.S. By 1905, the Commission had changed its name to the National Conference of Commissioners on Uniform State Laws
(“NCCUSL”) and adopted a constitution and bylaws.
Today, it is commonly called the “Uniform Law Commission” or “ULC.” Louis Brandeis, Wiley Rutledge,
William Rehnquist, and David Souter served as ULC
Commissioners and were later appointed to the U.S.
Supreme Court. Members of the ULC also include legal
luminaries Karl Llewellyn and William Prosser.
ULC Structure
The ULC is comprised of approximately 425 Commissioners, representing each State, the District of
Columbia, the Commonwealth of Puerto Rico, and the
U.S. Virgin Islands. Each State determines the method
and number of Commissioners appointed, with state
officials, often the Governor, making appointments.
Some Commissioners are state legislators, but most
are practitioners, judges, and law professors—all are
licensed to practice law. Commissioners receive no
compensation for work with the ULC, volunteering
1

Rule 37 statement: All parties consented to filing this
brief; counsel of record received timely notice of intent to
file; no counsel for any party authored it in whole or in part;
no party counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief;
and no person other than amicus or its counsel funded it.

2

their time.2 The ULC receives most of its financial support from state appropriations, supplemented by publisher revenue and foundation and federal-government
grants.
The ULC’s purpose is to provide non-partisan, wellconceived, and well-drafted legislation that brings clarity and stability to critical areas of state statutory law.
The ULC strengthens federalism by recommending
state statutes and procedures that, if adopted, would
be consistent from state to state, but that also reflect
the diverse experience of the states. As Justice Sandra
Day O’Connor noted, “[t]he [ULC] plays an integral
role in both preserving our federal system of government and keeping it vital.” Robert A. Stein, Forming a
More Perfect Union: A History of the Uniform Law
Commission Foreword (2013).
ULC Process
The ULC offers a deliberative, intensive, and
uniquely open drafting process that not only draws on
the expertise of Commissioners, but also utilizes input
from legal experts, advisors, and observers representing the views of other legal organizations or interests
that will be subject to the proposed laws.
The ULC receives proposals for new acts from state
bars, state government entities, private groups, ULC
Commissioners, or private individuals. The proposal is
generally assigned to a Study Committee, which researches the topic and decides whether to recommend
drafting an act. The ULC’s Executive Committee typi2

When state law allows, some travel expenses that
Commissioners incur are reimbursed, including state reimbursement for annual-meeting attendance and reimbursement for participation in the ULC committee meetings.

3

cally reviews these recommendations. An approved
recommendation leads to the creation of a Drafting
Committee.
An expert in the relevant legal field is chosen as the
drafter (“Reporter”). Advisors from the American Bar
Association, as well as any other interested stakeholders, are invited to assist on every Drafting Committee. Each draft act normally receives a minimum of
two years of consideration,3 and all committee drafts
are available for review and comment by all ULC Commissioners.
The Committee of the Whole at the ULC’s annual
meeting debates draft acts from Drafting Committees.
Each must be considered section by section at no less
than two annual meetings.4 After such consideration,
the states vote on the act’s approval. Unless a rare exception is granted, a majority of states present, and no
fewer than 20 states, must approve an act before it is
officially approved. Upon final approval, ULC Uniform
Acts are submitted to state legislatures for enactment.5
Many ULC acts have been widely adopted by states,
including the Uniform Commercial Code,6 Uniform
3

But see ULC Const. § 8.1(b) and (c) (allowing rarely
used waivers), available at https://www.uniformlaws.org/aboutULC/constitution.
4

But see supra note 3 (waivers).

5

ULC Commissioners have a duty to seek introduction/enactment of uniform acts in their states. ULC Const.
§ 6.1(6).
6

The UCC is a joint project with the American Law Institute. This Court considered a constitutional challenge to
a provision of the UCC, in Flagg Bros., Inc. v. Brooks, 436
U.S. 149 (1978), upholding it.

4

Anatomical Gift Act, Uniform Trade Secrets Act, and
Uniform Interstate Family Support Act. This Court
has recognized the ULC’s influence over many areas of
law, including tax policy, tort law, and criminal law.
See, e.g., Asarco, Inc. v. Idaho State Tax Comm’n, 458
U.S. 307, 310 n.3 (1982); McDermott, Inc. v. Amclyde,
511 U.S. 202, 209 n.8 (1994); Ponte v. Real, 471 U.S.
491, 520 (1985).
The UFPEA
Presidential-Electors law is another area the ULC
has long sought to influence because of its foundation
in state law and importance to the nation. In 1893, the
ULC established a committee on the Uniformity of
State Action in Appointing Presidential Electors after
a federal law requiring states to provide for “ascertainment” of electors was enacted. 24 Stat. 373 (1887) (Repealed and replaced by 3 U.S.C. § 1 et seq. (1948)).
The ULC’s interest in Presidential-Electors law was
cemented into a uniform law in 2010. Drafting began
on the UFPEA in 2009, with Robert Bennett7 serving
as the Act’s Reporter.8 Throughout 2009, multiple
7

Robert Bennett is the former dean of the Northwestern
University School of Law and the author of Taming the
Electoral College (2006).
8

Amicus’s counsel of record, James Bopp, Jr. (Indiana)
is a ULC Commissioner who served on the UFPEA’s Drafting Committee. Of Counsel to Amicus ULC are also prominent ULC Commissioners: Carl H. Lisman (Vermont) is its
President, Daniel Robbins (California) is Chairman of its
Executive Committee, Susan Kelly Nichols (North Carolina)
was the Drafting Committee’s Chair, and Peter F. Langrock
(Vermont) was its former Vice President and a ULC member for over 50 years.

5

drafts as well as supporting legal memos and comments were considered, resulting in the 2010 Interim
Draft. After further review and comment at the 2010
annual meeting,9 the UFPEA was approved by a vote
of the States, 44 in favor, one opposed, four abstaining,
and four not voting.

Summary of the Argument
Faithless electors hold the potential for serious
damage to our democratic process. Voters today are
entirely reasonable in thinking they are voting for the
candidates whose names appear, either solely or predominantly, on the ballot—not for little-known individuals named by the political parties or candidates. The
public outrage that would arise if a faithless elector
could determine the outcome of a presidential election
would cause a Constitutional crisis that this Court
would undoubtedly be asked to decide.
The ULC’s solution, the UFPEA, requires electors
to pledge to mark their ballots in compliance with the
voters’ wishes and removes and replaces electors
breaking that pledge before they cast their ballot. Several states have adopted the UFPEA, and a case in
Minnesota demonstrated its function. The UFPEA is
substantially similar to Colorado’s remove-and-replace
system, while Washington’s previous provision (in No.
19-465) differs by imposing a civil penalty for casting
a faithless ballot as the means of attempting to enforce
compliance.10 (Part I.)
9

This process complied with the ULC’s standard practice of considering an act for two annual meetings. See supra at 3.
10

After the 2018 election, Washington replaced its after-

6

The ULC believes that the UFPEA complies with
controlling constitutional provisions, statutory provisions, and this Court’s precedent. It is a practical, elegant solution to the problem. The Tenth Circuit decision is inconsistent with controlling provisions and
precedent. The Washington Supreme Court properly
upheld Washington’s provision, but the rationale of a
decision in the present case would readily resolve the
Washington case. This Court should grant Colorado’s
petition and remand Washington’s for consideration in
light of this case. (Part II.)
Given Colorado’s similarity to the UFPEA, the ULC
supports a holding by this Court that Colorado’s provision is constitutional—all in light of the vital governmental interests that can be resolved now, rather than
during a heated presidential election. Colorado’s petition should be granted for these additional reasons.
(Part III.)

Argument
I.
The UFPEA Is a Remove-and-Replace
Provision, Like Colorado’s but Unlike
Washington’s Post-Violation Penalty.
Colorado says the decision below “throws into doubt
the automatic-resignation provision in [the UFPEA],
promulgated by the [ULC] and enacted in six states.”
Pet. 35 (citing UFPEA § 7(c)). Amicus ULC agrees and
discusses here (A) the UFPEA, (B) its application, and
(C) how it compares to the faithless-elector provisions
of Colorado and Washington.

the-fact, civil penalty with the UFPEA.

7

A. The UFPEA Removes Faithless Electors Before They “Cast” a Ballot.
The UFPEA with comments is appended.11 In the
Prefatory Note, the ULC identifies the problem and
includes a solution.
Regarding the problem, the ULC explains that the
realities of the selection process have changed dramatically over the years, so that how the electoral college
actually functions could hardly have been imagined by
those who promulgated the constitutional provisions
regarding it. The dissonance between formality and
reality has opened room for “faithless electors” who
vote for a candidate other than those for whom the popular electoral majority (or plurality) assumed it was
casting its votes. Faithless electors hold the potential
for serious damage to our democratic processes, making advisable a uniform law to minimize the dangers
posed. App. 6a-9a.12
Regarding the solution, the Note shows that the
UFPEA resolves the problem. The UFPEA requires a
state-administered pledge of faithfulness (§§ 4 and
6(c)), with the presentation13 of a ballot marked by the
elector in violation of that pledge being deemed a resignation from the office of elector (§ 7(c)) and the vacancy
11

Available at https://www.uniformlaws.org/acts/catalog/
current (search “Faithful Presidential Electors Act”).
12

For readability, some language from UFPEA comments is used herein without quotation marks but with
citations.
13

Presenting a marked ballot is not “casting” a vote because “cast” is defined to require acceptance of a ballot compliant with the pledge. UFPEA § 2(1) (“cast” defined); § 7(b)
(only compliant ballots are accepted and counted).

8

so created being filled by a substitute elector taking a
similar pledge (§ 6(b) and (c)). After a full set of faithful
elector votes is obtained, the UFPEA provides that the
official notification of the identity of the state’s electors
(“certificate of ascertainment,” see 3 U.S.C. § 6) be officially amended by the Governor, so the state’s official
list of electors contains the names of only faithful electors (§ 8). App. 7a-9a.
The applicable provisions of UFPEA are set forth
next. Some sections are described. Critical ones are
stated in full.
Section 2, “Definitions,” defines “cast” as “accepted by the [Secretary of State] in accordance with
Section 7(b).” App. 10a.14
Section 3 provides for “Designation of State’s
Electors.” It provides for political parties to designate
an “elector nominee” and an “alternate elector nominee.” “Except as otherwise provided in Sections 5
through 8, this state’s electors are the winning elector
nominees under the laws of this state.” Elected alternates are a convenient vehicle to facilitate filling elector vacancies, dealt with under Section 6. App. 11-12a.
Section 4 mandates the “Pledge” by electors “to
serve and mark my ballots for President and Vice President for the nominees for those offices of the party
that nominated me.” App. 13a-14a.15
Section 6 provides for “Presiding Officer; Elector Vacancy.” Section 6(a) provides that a designated
14

Brackets indicate where the proper state-law official
is inserted or optional text is provided. App. 11a (Comment).
15

Note the use of “mark” instead of “cast,” which distinction and significance is discussed herein.

9

public official shall preside at the meeting of electors,
and Section 6(b) provides a means of filling vacancies
among electors. App. 17a-19a.
Section 7 provides for “Elector Voting”:
(a) At the time designated for elector voting
and after all vacant positions have been filled
under Section 6, the [Secretary of State] shall
provide each elector with a presidential and a
vice-presidential ballot. The elector shall mark
the elector’s presidential and vice-presidential
ballots with the elector’s votes for the offices of
President and Vice President, respectively,
along with the elector’s signature and the elector’s legibly printed name.
(b) Except as otherwise provided by law of
this state other than this [act], each elector shall
present both completed ballots to the [Secretary
of State], who shall examine the ballots and accept as cast all ballots of electors whose votes
are consistent with their pledges executed under
Section 4 or 6(c). Except as otherwise provided
by law of this state other than this [act], the
[Secretary of State] may not accept and may not
count either an elector’s presidential or vicepresidential ballot if the elector has not marked
both ballots or has marked a ballot in violation
of the elector’s pledge.
(c) An elector who refuses to present a ballot,
presents an unmarked ballot, or presents a ballot marked in violation of the elector’s pledge
executed under Section 4 or 6(c) vacates the office of elector, creating a vacant position to be
filled under Section 6.
(d) The [Secretary of State] shall distribute

10

ballots to and collect ballots from a substitute
elector and repeat the process under this section
of examining ballots, declaring and filling vacant positions as required, and recording appropriately completed ballots from the substituted
electors, until all of this state’s electoral votes
have been cast and recorded.
App. 20a-22a. This section describes the conditions
under which the Secretary of State “accepts” ballots for
purposes of the “cast” definition. Ballots not accepted
(for noncompliance with legal requirements as to
marking or pledge) are not “cast.” Electors proffering
noncompliant, unaccepted ballots immediately—by
action of law—“vacate[] the office of elector, creating a
vacant position to be filled under Section 6.” App. 21a22a.
B. The UFPEA Has Been Adopted by States and
Successfully Functioned.
The UFPEA has been adopted in Washington,16 Indiana, Nebraska, Nevada, Montana, and Minnesota.17
16

In 2019, Washington adopted the UFPEA. See Wash.
Rev. Code §§ 29A.56.080-092. The provision at issue in the
Washington certiorari petition (No. 19-465) has been replaced, i.e., the Washington Supreme Court reviewed the
former statute.
17

See https://www.uniformlaws.org/committees/community-home?CommunityKey=6b56b4c1-5004-48a5-add20c410cce587d. Other states, while not adopting the UFPEA,
have adopted statutes providing that an elector’s faithlessness constitutes resignation from the office of elector, with
the vacancy to be filled by a designated process. See, e.g.,
N.C. Gen. Stat. § 163-212 (2019) (also provides a fine for
faithless electors); Mich. Comp. Laws Serv. § 168.47

11

In 2016, a Minnesota “faithless elector” challenged
that state’s adoption of the UFPEA. (Minn. Stat.
§ 208.40 et seq.). The elector had pledged to mark his
ballot for the Democratic nominees for President and
Vice-President, if they won the popular vote. See Abdurrahman v. Dayton, No. 16-cv-4279 (PAM/HB), 2016
U.S. Dist. LEXIS 178222, at *2 (D. Minn. Dec. 23,
2016), aff’d on mootness grounds, 903 F.3d 813 (8th
Cir. 2019). When he presented a ballot in noncompliance with his pledge, the Secretary of State refused to
accept and count his ballot and appointed an alternate
to replace him, per the statute. Id.
The court found the faithless elector unlikely to succeed on the merits and denied his requested preliminary injunction, reasoning that, under the Constitution
and the arc of history, electors are not independent and
not “left to the exercise of their own judgment.” Id. at
*11. Instead, the court said electors have “‘degenerated
into mere agents,’” and these agents must be faithful,
lest they be “‘dangerous.’” Id. (quoting Ray v. Blair, 343
U.S. 214, 230 n. 15 (1952) (internal citations omitted)).
The court emphasized that this Court has reiterated
that “‘[h]istory has now favored the voter’” by allowing
citizens, rather than legislators, to vote for electors. Id.
(quoting Bush v. Gore, 531 U.S. 98, 104 (2000)). The
court’s initial constitutional analysis upheld Minnesota’s UFPEA and provides insight here.

(LexisNexis 2019); Utah Code Ann. § 20A-13-304(3)
(LexisNexis 2019).

12

C. Colorado’s Provision Is Similar to the UFPEA,
but Washington’s Previous Provision Differs.
The UFPEA operates by an automatic remove-andreplace system that functions before a vote is “cast,”
with “cast” meaning “accepted” as legally compliant.
Colorado’s remove-and-replace system, as interpreted by Colorado state courts, operates in a similar
manner to the UFPEA. See Pet.App. 204-05 (Colo. Rev.
Stat. § 1-4-304). Under § 1-4-304(5), “[e]ach presidential elector shall vote for the presidential [and vicepresidential] candidate . . . who received the highest
number of votes at the preceding general election in
this state.” Under § 1-4-304(1), “refusal to act” requires
that “the presidential electors present shall immediately proceed to fill the vacancy.” The district court in
the Colorado case held that “[a] presidential elector’s
failure to comply with § 1-4-304(5)[] is a ‘refusal to act’
. . . and causes a vacancy” that “shall be immediately
filled.” Pet.App. 201-02. “Colorado’s courts have interpreted ‘refusal to act’ to include an elector’s decision to
cast a ballot for someone other than the presidential
candidate who won the State’s popular vote.” Pet.App.
2 (emphasis added; original emphasis removed).
According to the facts alleged in the Colorado case,
when Mr. Baca’s decision to cast a noncompliant ballot
was revealed, he was removed and his noncompliant
ballot was not accepted and so was not cast. See
Pet.App. 217-18 (¶¶ 54, 55).
The Washington provision in No. 19-465 provides
that: “Any elector who votes for a person or persons not
nominated by the party of which he or she is an elector
is subject to a civil penalty of up to one thousand dollars.” Wash. Rev. Code § 29A.56.340. The Washington
Supreme Court upheld that provision. In re Guerra,

13

441 P.3d 807 (Wash. 2019). Thus the critical difference
between that Washington provision and Colorado’s
(and the UFPEA) is that the Washington provision
relies on the prospect of a civil penalty to attempt to
force compliance while Colorado (and the UFPEA) provides a pre-vote-replacement mechanism to ensure
compliance. Since Washington replaced that provision
with the UFPEA, this is another reason to accept the
Colorado petition and not Washington’s.
The ULC requests that this Court grant review of
the Colorado provision because such review allows this
Court to consider that provision in light of other removal-and-replacement systems, including the UFPEA.
This Court’s rationale in the decision in the present
case would not only govern the Washington case, but
would also provide needed clarity before any future
efforts are made to promote the UFPEA in other states.

II.
The UFPEA Complies with Controlling Federal
Constitutional and Statutory Provisions
and Precedent.
Of course, the UFPEA, if enacted by a state, would
be subject to federal constitutional and statutory provisions. The ULC believes that the UFPEA complies
with applicable federal law: the U.S. Constitution’s
Article II, § 1 and Twelfth Amendment and 3 U.S.C.
Chapter 1. Since Colorado’s provision operates similarly, it also complies with applicable federal law.
Article II, § 1 authorizes states to appoint their electors “in such Manner as the Legislature thereof may
direct . . .” (emphasis added). Pet.App. 203. Thus, state
legislatures have a broad mandate to control the manner of appointing electors, i.e., who may be an elector

14

(e.g., by setting qualifications) and how individuals
become and be electors. For example, the legislature
itself might appoint electors, establishing its own qualifications and applying its own procedural rules for
becoming and being an elector. That broad who-andhow authority remains if the legislature allows electors
to be chosen by election. This authority includes
whether to mention electors on ballots (and if so, how
prominently). If a state does not mention electors on
the ballot, it leads voters to believe they are voting directly for candidates. Then the state has a strong interest in ensuring that the voters’ choice is followed, and
it may impose who-and-how measures to avoid voters
believing they have been defrauded.
The Twelfth Amendment mandates (inter alia) that
electors (i) vote by casting ballots and (ii) cast separate
ballots for President and Vice-President. Pet. App. 203.
The Twelfth Amendment does not vitiate the who-andhow “manner” authority over electors in Article II, § 1,
except to specify separate votes by ballot. Since the
manner of casting ballots is not specified, that is left to
state regulation as before—unless otherwise governed
by federal statute.
The provisions at 3 U.S.C. Chapter 1 (“Presidential
Elections and Vacancies”) generally codify constitutional provisions (with some added specifics) and recognize broad state “manner” authority:
• Section 1 requires appointment of electors on an
appointed day, but it provides no restriction on the
broad who-and-how “manner” authority of appointing electors under Article II, § 1—so the states retain that broad, plenary authority (apart from the
limited requirements in Chapter 1 as to the day of
appointment and number of electors);

15

• Section 2 recognizes state authority to select a “subsequent day in such manner as the legislature of
such State may direct” (emphasis added) to appoint
electors if a state failed to do so on the appointed
day—so that the choice of that day is left to the
states’ “manner” authority;
• Section 4 recognizes state authority to “by law, provide for the filling of any vacancies which may occur
in its college of electors when such college meets to
give its electoral vote” (emphasis added)—so vacancies are left to the states’ “manner” authority;
• Section 5 recognizes state authority to “provid[e] . . .
for . . . final determination of any controversy or contest concerning the appointment of . . . electors . . .
[which determination] shall be conclusive, and shall
govern the counting of the electoral votes . . . so far
as the ascertainment of the electors appointed by
such State is concerned” (emphasis added)—so
states retain their “manner” authority over controversies and contests about the who-and-how of electors’ appointment;
• Section 6 recognizes state authority to determine
and certify the “final ascertainment,” done “under
and in pursuance of the laws of such State providing
for such ascertainment” (emphasis added)18—so
18

The “certificate of ascertainment” certifies “the names
of such electors and the canvass or other ascertainment
under the laws of such State of the number of votes given or
cast for each person for whose appointment any and all
votes have been given or cast . . . .” Id. (emphasis added).
“[C]anvass or other ascertainment” refers to the number of
popular votes obtained by all elector candidates in the state.
App. 15a (Comment).

16

states retain their who-and-how “manner” authority over the final determination and certification of
who is an elector;
• Section 7 requires electors to cast their ballots on
the appointed day “at such place in each State as
the legislature of such State shall direct”—so states
retain their authority over how electors vote that
was left to states by the Twelfth Amendment; and
• Section 8 requires that “[t]he electors shall vote for
President and Vice President, respectively, in the
manner directed by the Constitution”—so given the
lack of other restrictions imposed by statute, states
retain their authority over how electors vote (except
that there must be two votes by ballot).
This federal statute does not restrict the states’ generally broad authority under Article II, § 1 and the
Twelfth Amendment, other than appointing a day and
prescribing the number of electors. Congress understood states’ authority to be broad—over activities
ranging from elector selection to the manner of casting
ballots—and Congress affirmed that broad authority
by a statute authorizing particular state laws. Congress authorized states to enact laws to govern (i) who
is an authorized elector, (ii) how individuals may become and be electors, and (iii) how electoral ballots are
cast and counted. The necessity of the states regulating
the how of voting is clearly implicit because otherwise
electors could, e.g., refuse to use provided ballots and
instead text or email their preferences, or, as Mr. Baca
did, “by writing Mr. Kaine’s name on a pen box.”
Pet.App. 218 (¶ 55). So the electoral college is a joint
state-federal process, and states have a vital authorized role.

17

The UFPEA was designed to be entirely consistent
with the foregoing provisions under the states’ authority to regulate who may become and be an elector, how
electors are selected, and how they cast ballots. The
UFPEA permissibly governs the who and how of electors in several ways:
• Section 3 provides for the designation of elector and
alternate-elector nominees;
• Section 4 requires a faithfulness pledge as a condition of being an elector;
• Section 5 provides that the certificate of ascertainment state that the electors will serve unless a vacancy occurs, in which case a replacement will fill
it and an amended certificate will follow;
• Section 6 governs filling elector vacancies;
• Section 7 governs elector voting and establishes
function-of-law vacancies (to be filled under § 6),
which include a vacancy caused by presenting a
ballot to the presiding official in violation of the
pledge; and
• Section 8 provides for amended certification of the
list of electors to be substituted for the prior certificate.
And the UFPEA permissibly governs the how of casting ballots in several ways:
• Section 2(1) defines “cast” as “accepted . . . in accordance with Section 7(b)”;
• Section 7(a) and (b) distinguish between (i) “mark[ing]” ballots, (ii) “present[ing]” them, and (iii) a ballot’s “accept[ance] as cast”; and
• Under § 7(b), only after an elector presents a ballot
consistent with the pledge and the official examiner
confirms compliance and accepts the ballot as cast

18

is the ballot actually cast. Presenting a noncompliant ballot does not cast a ballot but rather—by operation of law—immediately removes the former
elector and creates a vacancy to be filled by a faithful elector.
The analytical distinction between the steps involved in elector voting is readily seen in two other
voting contexts. First, a voter at the polls receives a
paper ballot.19 She goes to a booth and marks the ballot. Then she goes to the ballot box and casts the ballot.
Marking and casting are distinct acts, both physically
and conceptually. Were she to do anything other than
deposit the marked ballot in the ballot box, no ballot
would be cast. And if she deposits in the ballot box a
ballot that is unmarked or improperly marked under
governing law, no vote is cast. Thus, compliance with
legal requirements is necessary for a vote to be legally
cast.
The second context involves absentee voting. If the
ballot is unmarked or improperly marked under governing law or if other legal requirements for absentee
ballot voting are not complied with, no vote is cast.
Thus, marking, submitting for approval, and casting of
a ballot are clearly distinct factually and conceptually.
Casting a ballot and actually voting both require compliance with controlling law, and casting a ballot depends on compliance with state law.
The UFPEA merely applies these ordinary, practical, and conceptual distinctions to define “cast” as being accepted as legally compliant. It distinguishes (i)
marking a ballot, (ii) proffering it to the presiding offi19

In non-paper-ballot systems, voters still “mark” candidates then “cast” the ballot after reviewing their marks.

19

cial for compliance inspection, and (iii) acceptance of
the ballot as compliant. Only the third step constitutes
casting the ballot. This recognition of the ordinary,
practical, and conceptual voting acts that are also inherent in elector voting allows an automatic-electorremoval provision (§ 7(b)) to prevent a proffered noncompliant ballot from being cast and to substitute a
faithful voter who casts a faithful ballot. Note that the
pledge is to “mark” the ballot as prescribed (§ 4), not to
“cast” it as prescribed. So the presiding official is able
to review the ballot after marking, and a noncompliant
elector is removed for breaking the pledge before any
ballot is “cast.” And the faithless former elector is replaced by an elector who is faithful to the pledge or is
in turn replaced—until compliance with the pledge is
achieved by all electors.
The UFPEA’s approach is intended to be a constitutional, lawful, practical, and elegant solution to the
possibility of a faithless elector by preventing faithless
votes from being case. It does not impose civil or criminal penalties on electors after the fact, which may not
be effective, by avoiding the possibility of electors accepting the consequences (e.g., a $1,000 civil penalty in
Washington) and casting a faithless vote.20
The UFPEA was also designed to be consistent with
20

The ULC does not address here Colorado’s Tenth
Amendment argument (Pet. 26-27), since the ULC deems
UFPEA-type provisions fully consistent with Article II, § 1,
the Twelfth Amendment, and 3 U.S.C. Chapter 1. The ULC
agrees that “[t]he public’s post-enactment understanding
and longstanding historical practice both support State
control of electors” (Pet. 28-32), and the UFPEA is part of
that understanding and practice.

20

the rationale of Ray, 343 U.S. 214, which upheld a provision requiring electors to pledge “aid and support” for
a political party’s nominee, id. at 215. Against an argument for absolute liberty of choice for electors, this
Court held that there is “no federal constitutional objection” where a system of choosing electors “fix[es] the
qualifications for the candidates” because the Twelfth
Amendment does not mandate such “absolute freedom”
for electors.” Id. at 231. The Ray dissent advocated for
such complete liberty of choice, but that was of course
in dissent. Id. at 232 (Jackson, J. dissenting). As the
Colorado Petition elaborates, the Twelfth Amendment
does not grant electors such absolute freedom. Pet. 2126. Moreover, Ray is consistent with the view that regulating electors up until their ballot is formally cast
under state law is a state function, not a federal function, so that states are free to regulate within their
own sphere up until that time, as allowed by the governing constitutional and statutory provisions.
The Tenth Circuit decision jeopardizes the UFPEA’s
solution to the faithless-elector problem. By adopting
the Ray dissent’s rationale, instead of the Ray majority’s, and by interpreting the Twelfth Amendment as
mandating absolute elector discretion, the decision
below jeopardizes all efforts to rein in faithless electors. And the Tenth Circuit decision even casts doubt
on the ballot designs used by many states because (i)
many make no mention of electors, (ii) some do so only
in small print, and (iii) no choice of individual electors
in a slate is possible—which makes the ballots deceitful unless electors are faithful. Most voters do not contemplate that they are voting for electors instead of
candidates for office. If the results of a November election were overturned some 40 days later, based on

21

what many voters would deem deception, “the potential
is great for harm to our democracy,” as the UFPEA’s
Prefatory Note explains. App. 9a.
This Court should grant certiorari to consider Colorado’s removal-and-replacement system, which is similar in application to the UFPEA.

III.
Important Principles of Individual
Political Empowerment and Federalism
Favor Certiorari.
Petitioner’s case is perfectly suited for consideration. By granting certiorari, this Court can settle critical issues of law before they arise in crisis. In particular, the case implicates states’ interests in bolstering
individual political empowerment and protecting popular election results from manipulation. Obtaining clarity on these issues is vital.
Individual political empowerment is at the core of
our nation’s founding—as “no taxation without representation” was a recognition that the governed control,
via representation, those charged with governance. See
Patrick Henry, The Virginia Stamp Act Resolutions,
House of Burgesses, May 30, 1765. The mid-twentiethcentury civil-rights movement illustrates the resulting
political division when many reasonably believe their
votes for representatives are ignored or they are disenfranchised by those in power. The UFPEA and similar
statutes represent efforts to bolster individual political
empowerment and the sense that presidential elections
are conducted in an orderly, fair manner, thus yielding
“greater stability of and confidence in our government.”
Beverly J. Ross and William Josephson, The Electoral
College and the Popular Vote, 12 J. L. & Politics 665,

22

747 (1996).
If the Court denies certiorari, the Tenth Circuit’s
decision might lead to subsequent challenges regarding
the constitutionality of ballots making little or no mention of electors. See supra at 20. During times of high
political polarization, the electoral college is the subject
of greater debate and scrutiny, especially when no
party achieves sufficient electoral dominance to decrease the likelihood of close electoral votes. Keith E.
Whittington, Originalism, Constitutional Construction,
and the Problem of Faithless Electors, 59 Ariz. L. Rev.
904, 904 (2017). Presently, key “battleground” states
can lead to a tie or a razor-thin electoral victory.
Close votes might increase “as technology and increasing campaign sophistication heighten the competitiveness of presidential elections.” Memorandum from
Robert Bennett, UFPEA Reporter, to the NCCUSL
Drafting Committee on Presidential Electors Act
(March 2009).21 With close votes, “there is ample reason to think that parties and candidates will be
tempted to court faithlessness.”22 Id. Indeed, “one significant motivation for states to adopt [a faithless-voter
act is] to avoid the political havoc that would ensue
from more deeply embroiling the courts in a controversial election where a candidate might attempt to swing
an election with the defection of a faithless elector.”
21

See https://www.uniformlaws.org/HigherLogic/System/DownloadDocumentFile.ashx?DocumentFileKey=8a4d3ae7-90eb-d67f-4c7c0ee622724148&forceDialog=0.
22

From 1808 through 2004, there were 19 faithless electors. In the 2016 election alone, there were seven. See
https://www.wsj.com/graphics/electoral-college-2016/.

23

Jesse O. Hale Jr., Reining In Renegade Presidential
Electors: A Uniform State Approach, Baker Ctr. J. of
Applied Pub. Policy, 2010, at 8.23 Granting certiorari
now means the critical issue of the extent to which
states can bolster individual political empowerment
will be decided outside of the heat of a close presidential election.
Moreover, federalism and the decentralization of
presidential elections protect our presidential election
system from interference. See Eric Manpearl, Securing
U.S. Election Systems: Designating U.S. Election Systems as Critical Infrastructure and Instituting Election
Security Reforms, 24 B.U. J. Sci. & Tech. L. 168, 182
(2018). Under the UFPEA or the Colorado statute at
issue here, changing the actual outcome of the election,
would require somehow changing the number of votes
cast for a particular candidate in particular precincts
in particular states, which use different types of voting
machines and computer systems. See id. But if faithless electors are allowed, one need only “tamper” with
a few electors in strategic states. Denying certiorari
could therefore cast doubt on the constitutionality of a
primary method states use to protect the integrity of
presidential elections and our democracy.

Conclusion
This Court should grant Colorado’s petition for a
writ of certiorari and hold the Washington petition for
remand in light of the decision in the Colorado case.

23

Mr. Hale (Tennessee) is also a ULC Commissioner
and a member of the Drafting Committee.

24

Respectfully submitted,
Carl H. Lisman
James Bopp, Jr.
84 Pine St.
jboppjr@aol.com
Burlington, VT 05401
Counsel of Record
Richard E. Coleson
Daniel Robbins
rcoleson@bopplaw.com
Bldg E
Melena
S. Siebert
15301 Ventura Blvd.
msiebert@bopplaw.com
Sherman Oaks, CA 91403
THE BOPP LAW FIRM, PC
Susan Kelly Nichols
The National Building
3217 Northampton St.
1 South Sixth Street
Raleigh, NC 27609
Terre Haute, IN 47807
Peter F. Langrock
812/232-2434 telephone
111 South Pleasant Street 812/235-3685 facsimile
P.O. Drawer 351
Counsel for Amicus CuMiddlebury, VT 05753-0351 riae
Of Counsel for Amicus Curiae

